            AUDIT REPORT
               13-09




U.S. Government Printing Office FY 2012
      Independent Auditor’s Report

           February 28, 2013
Date
February 28, 2013
To
Acting Public Printer
From
Inspector General
Subject
FY 2012 Independent Auditor’s Report
Report Number 13-09

Attached is the Independent Auditor’s Report on the U.S. Government Printing Office’s
(GPO) FY 2012 financial statements. We contracted with the independent certified public
accounting firm of KPMG LLP (KPMG) to audit the financial statements of the GPO as of and
for the years ended September 30, 2012 and 2011. The contract required that the audit be
conducted in accordance with generally accepted government auditing standards (GAGAS).

KPMG’s opinion on GPO’s financial statements is unqualified. KPMG’s consideration of
internal control over financial reporting resulted in a material weakness. A material
weakness is a deficiency, or combination of deficiencies, in internal control, such that there
is a reasonable possibility that a material misstatement of the entity's financial statements
will not be prevented, or detected and corrected on a timely basis. In addition, KPMG
identified one significant deficiency in processing and maintenance of human resource and
payroll information. A significant deficiency is a deficiency, or combination of deficiencies,
in internal control that is less severe than a material weakness, yet important enough to
merit attention by those charged with governance. KPMG made recommendations that
GPO address each of these deficiencies.

The OIG further recommends that management develop a comprehensive corrective action
plan (CAP) to address the material weakness identified during the audit. Appendix A,
"Internal Control over Financial Reporting," of the Chief Financial Officer's Council's
Implementation Guide for OMB Circular A-I23, "Management's Responsibility for Internal
Control” explains that a comprehensive CAP lists the detailed actions that agency personnel
must perform to resolve a material weakness. The Guide also describes the basic elements
of a comprehensive CAP as including:

•   A summary description of the deficiency.
•   The year the deficiency was first identified.
•   The targeted corrective action date (the date of management follow-up).
•   The agency official responsible for monitoring progress.
•   The indicators, statistics, or metrics used to gauge resolution progress (in
    advance of audit follow-up) to validate the resolution of the deficiency.
•   The quantifiable target or otherwise qualitative characteristic (e.g., milestone)
    that reports how resolution activities are progressing.

While GPO is not required to follow OMB Circular A-I23, the Circular is considered
to contain policy related to internal controls that we consider a Federal Government
best practice. CAPs are the mechanism whereby management presents the
procedures the agency will follow to resolve deficiencies.

Recommendation

We recommend the Chief Financial Officer prepare a comprehensive CAP to address
the material weakness identified in the consolidated financial statement audit. The
CAP should include measurable indicators of compliance and resolution to assess
and validate progress throughout the resolution cycle. GPO should closely monitor
and update the CAP periodically.

KPMG is responsible for the attached auditor’s report and the conclusions expressed
in the report. However, in connection with the contract, we reviewed KPMG’s
report and related documentation and inquired of its representatives. Our review,
as differentiated from an audit in accordance with GAGAS, was not intended to
enable us to express, and we do not express, an opinion on GPO’s financial
statements; or conclusions about the effectiveness of internal control; or on GPO’s
compliance with laws and regulations. Our review disclosed no instances where
KPMG did not comply, in all material respects, with GAGAS requirements.

We appreciate the courtesies extended to KPMG and to our audit staff. If you have
any questions or comments about this report, please do not hesitate to contact me at
(202) 512-0039.



MICHAEL A. RAPONI
Inspector General

Attachment
cc:
Assistant Public Printer, Operations
General Counsel
Chief Financial Officer
